HHS/OIG-Audit--"Opportunities for Improved Mangement Efficiency of the Head Start Program, Attendance Goals and Nonfederal Resources, (A-04-90-00010)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Opportunities for Improved Management Efficiency of the Head Start Program, Attendance Goals and Nonfederal Resources," (A-04-90-00010)
March 25, 1992
Complete
Text of Report is available in PDF format (235 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our audit of procedures used by the Administration for Children and Families
to ensure that established attendance goals are met and that waivers of nonfederal resource requirements for Head Start
agencies are sufficiently justified. We found that 58 center-based grantees (about 29 percent of the 200 grantees and delegates
sampled) fell short of achieving the average daily attendance goal of 85 percent of funded enrollment. In addition, our
review disclosed that about 77 percent (23 of 30) of the sampled Indian and Migrant agencies did not meet their 20 percent
non-Federal matching requirement.